Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




          MOUNT VERNON
NEIGHBORHOOD HEALTH CENTER,
  INC., CLAIMED UNALLOWABLE
 FEDERAL GRANT EXPENDITURES


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        April 2013
                                                      A-02-11-02013
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS) and
Capital Improvement Program (CIP) grants.

Mount Vernon Neighborhood Health Center, Inc. (Mount Vernon) is a nonprofit organization
that operates three health centers in Westchester County, New York. Mount Vernon provides
medical and dental services and is funded primarily by patient service revenues, State and local
contracts, and Federal grants.

In 2009, HRSA awarded Mount Vernon approximately $4.2 million in Recovery Act funds.
Approximately $2.5 million of this amount was awarded under a CIP grant to upgrade Mount
Vernon’s Practice Management System and medical equipment. Approximately $1.7 million
was awarded under an IDS grant to sustain Mount Vernon’s workforce and hire additional staff,
thereby increasing access to health care within Mount Vernon’s service area. In addition to these
funds, HRSA also provides Mount Vernon with approximately $6 million per year in section 330
grant funds.

Mount Vernon must comply with Federal cost principles in 2 CFR part 230, Cost Principles for
Non-Profit Organizations, the requirements for health centers in 42 U.S.C. § 254(b), and the
financial management system requirements in 45 CFR § 74.21.

OBJECTIVE

Our objective was to determine whether Mount Vernon’s Recovery Act grant expenditures were
allowable.

SUMMARY OF FINDINGS

Of the $4,186,294 in costs that we reviewed, Mount Vernon claimed $2,534,218 in costs that
were allowable, $42,030 in costs that were unallowable, and $1,610,046 in costs for which we
could not determine allowability.

                                                i
Mount Vernon claimed these unallowable expenditures because it misinterpreted the grant award
terms and conditions, and claimed unallocable and duplicate costs.

We could not determine the allowability of the remaining $1,610,046 claimed by Mount Vernon
because it did not properly maintain personnel activity reports for employees charged to the IDS
grant. Although Mount Vernon maintained personnel activity reports for employees whom it
stated worked on the IDS grant, the employees’ personnel activity reports reflected that the
employees worked entirely on another HRSA grant (the section 330 grant). This occurred
because, according to Mount Vernon officials, HRSA told them that they did not need to
separately identify the actual activity for each employee that worked on the IDS grant.

In addition, Mount Vernon drew down $249,162 in CIP grant funds for which it did not have an
immediate cash need. We did not determine the $249,162 to be unallowable because Mount
Vernon expended the grant funds for allowable expenditures. However, we are reporting on the
matter because Mount Vernon did not follow its existing policies and procedures for drawing
down Federal funds.

RECOMMENDATIONS

We recommend that HRSA:

   •   require Mount Vernon to refund $42,030 to the Federal Government ($3,136 related to
       the IDS grant, and $38,894 related to the CIP grant);

   •   either require Mount Vernon to refund $1,610,046 in IDS grant funds to the Federal
       Government or work with Mount Vernon to determine whether any of these costs
       claimed against the grant were allowable;

   •   educate Mount Vernon officials on Federal requirements for the proper period to charge
       costs and supporting salaries and wages and ensure that Mount Vernon maintains
       personnel activity reports for each employee who works on Federal awards; and

   •   ensure that Mount Vernon adheres to its policies and procedures for drawing down
       Federal funds.

MOUNT VERNON NEIGHBORHOOD HEALTH CENTER, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our initial draft report, Mount Vernon disagreed with several of our
findings on the basis of guidance about prior approval of grant costs that, according to Mount
Vernon officials, it had received from HRSA. In its comments, Mount Vernon also described
steps that it has taken to ensure that its time-and-effort reporting accurately reflects the grant to
which each of its employees is assigned. Mount Vernon provided documentation to substantiate
its efforts, including its revised policies and procedures for time-and-effort reporting. After
reviewing Mount Vernon’s comments and consulting with HRSA officials, we removed one
finding and reduced the amount of the corresponding recommended disallowance from $148,878

                                                  ii
to $38,894. HRSA officials confirmed that Mount Vernon did not need prior written approval
for $109,984 of equipment, building improvement, and information technology costs that Mount
Vernon had charged to its CIP grant. We maintain that our remaining findings and
recommendations in this report are valid.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our second draft report—which included Mount Vernon’s written
comments on our initial draft report—HRSA concurred with our recommendations. Specifically,
HRSA stated that it will work with Mount Vernon to determine the amount of unallowable costs
and require Mount Vernon to refund those amounts to the Federal Government. HRSA also
stated that it will work with Mount Vernon to ensure that Mount Vernon complies with Federal
requirements for charging costs, for supporting salaries and wages, and for maintaining
personnel activity reports for each employee who works on Federal awards. Lastly, HRSA
stated that it will work with Mount Vernon to ensure that Mount Vernon complies with its own
policies and procedures for drawing down Federal funds.




                                             iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Health Center Program ......................................................................................... 1
              American Recovery and Reinvestment Act of 2009............................................. 1
              Mount Vernon Neighborhood Health Center, Inc. .............................................. 1
              Federal Requirements for Grantees ...................................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ..................................................................................................................... 2
               Methodology ......................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          UNALLOWABLE EXPENDITURES CLAIMED
           FOR FEDERAL REIMBURSEMENT ......................................................................... 4
               Expenditures for the Increased Demand for Services Grant ................................. 4
               Expenditures for the Capital Improvement Program Grant .................................. 5

          DRAWDOWNS MADE WITHOUT AN IMMEDIATE CASH NEED ......................... 6

          RECOMMENDATIONS .................................................................................................. 6

          MOUNT VERNON NEIGHBORHOOD HEALTH CENTER, INC.,
           COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ................... 7
              Expenditures for the Increased Demand for Services Grant ................................. 7
              Expenditures for the Capital Improvement Program Grant .................................. 8
              Drawdowns Made Without an Immediate Cash Need .......................................... 9

          HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS.......... 9

APPENDIXES

          A: MOUNT VERNON NEIGHBORHOOD HEALTH CENTER, INC., COMMENTS

          B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                     iv
                                            INTRODUCTION

BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

American Recovery and Reinvestment Act of 2009

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS) and
Capital Improvement Program (CIP) grants.

Mount Vernon Neighborhood Health Center, Inc.

Mount Vernon Neighborhood Health Center, Inc. (Mount Vernon) is a nonprofit organization
that operates three health centers in Westchester County, New York. Mount Vernon provides
medical and dental services and is funded primarily by patient service revenues, State and local
contracts, and Federal grants.

In 2009, HRSA awarded Mount Vernon approximately $4.2 million in Recovery Act funds.
Approximately $2.5 million of this amount was awarded under a CIP grant to upgrade Mount
Vernon’s Practice Management System and medical equipment. 1 Approximately $1.7 million
was awarded under an IDS grant to sustain Mount Vernon’s workforce and hire additional staff,
thereby increasing access to health care within Mount Vernon’s service area. 2 In addition to
these funds, HRSA also provides Mount Vernon with approximately $6 million per year in
section 330 grant funds.




1
  Mount Vernon’s Practice Management System is used to manage patient appointments, maintain patient financial
information, and record patient clinical information.
2
 The grant budget periods covered by our audit were: March 27, 2009, through March 26, 2011, for the IDS grant
funds; and June 29, 2009, through June 28, 2011, for the CIP grant funds.


                                                       1
Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS grants and agreements awarded to nonprofit organizations. As a
nonprofit organization in receipt of Federal funds, Mount Vernon must comply with Federal cost
principles in 2 CFR part 230, Cost Principles for Non-Profit Organizations (Office of
Management and Budget Circular A-122), incorporated by reference at 45 CFR § 74.27(a).
These cost principles require that grant expenditures submitted for Federal reimbursement be
reasonable, allocable, and otherwise allowable. The HHS awarding agency may include
additional requirements that are considered necessary to attain the award’s objectives.

To help ensure that Federal requirements are met, grantees must maintain financial management
systems in accordance with 45 CFR § 74.21. These systems must provide for accurate, current, and
complete disclosure of the financial results of each HHS-sponsored project or program (45 CFR
§ 74.21(b)(1)) and must ensure that accounting records are supported by source documentation
(45 CFR § 74.21(b)(7)). Grantees also must have written procedures for determining the
allowability of expenditures in accordance with applicable Federal cost principles and the terms and
conditions of the award (45 CFR § 74.21(b)(6)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Mount Vernon’s Recovery Act grant expenditures were
allowable.

Scope

We conducted a review of Mount Vernon’s $4,186,294 in IDS and CIP grants expenditures for
the period March 27, 2009, through June 28, 2011.

We performed our fieldwork at Mount Vernon’s administrative office in Mount Vernon, New
York, during September 2011.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed Mount Vernon’s HRSA grant applications and supporting documentation;

   •    interviewed Mount Vernon personnel to gain an understanding of Mount Vernon’s
        accounting system, internal controls over Federal expenditures, and IDS and CIP grant
        activities;


                                                2
    •   reviewed Mount Vernon’s policies and procedures for accounting for Recovery Act
        funds, time-and-effort certification, payroll processing, documenting transactions, and
        drawing down Federal funds;

    •   reviewed Mount Vernon’s independent auditor’s reports and related financial statements
        for fiscal years 2009 and 2010; 3 and

    •   reviewed expenditures claimed on Mount Vernon’s IDS and CIP grants for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

Of the $4,186,294 in costs that we reviewed, Mount Vernon claimed $2,534,218 in costs that
were allowable, $42,030 in costs that were unallowable, and $1,610,046 in costs for which we
could not determine allowability.

Mount Vernon claimed the $42,030 in unallowable expenditures because its officials
misinterpreted the grant award terms and conditions and claimed unallocable and duplicate costs.

We could not determine the allowability of the remaining $1,610,046 claimed by Mount Vernon
because it did not properly maintain personnel activity reports for employees charged to the IDS
grant. Although Mount Vernon maintained personnel activity reports for employees whom it
stated worked on the IDS grant, the employees’ personnel activity reports reflected that the
employees worked entirely on another HRSA grant (the section 330 grant). According to Mount
Vernon officials, HRSA told them that they did not need to separately identify the actual activity
for each employee that worked on the IDS grant; therefore, they did not ensure that the
employees’ reports reflected actual work.

In addition, Mount Vernon drew down $249,162 in CIP grant funds for which it did not have an
immediate cash need. We did not determine the $249,162 to be unallowable because Mount
Vernon expended the grant funds for allowable expenditures. However, we are reporting on the
matter because Mount Vernon did not follow its existing policies and procedures for drawing
down Federal funds.




3
 We did not review Mount Vernon’s independent auditor’s report for fiscal year 2011 because the fiscal year ended
after our audit period.

                                                        3
UNALLOWABLE EXPENDITURES CLAIMED FOR FEDERAL REIMBURSEMENT

Expenditures for the Increased Demand for Services Grant

Mount Vernon claimed unallowable IDS grant expenditures for supplies and cleaning services
totaling $3,136. In addition, we could not determine the allowability of $1,610,046 charged to
the IDS grant because Mount Vernon did not properly maintain personnel activity reports for
employees charged to the grant.

Unapproved Supply Costs

Pursuant to 2 CFR part 230, Appendix B, § 36, preaward costs are allowable only to the extent
that they would have been allowable if incurred after the date of the award and only with the
written approval of the awarding agency.

Mount Vernon charged $2,597 in supply costs to the IDS grant for costs incurred prior to the
start of the grant period. Specifically, Mount Vernon made purchases between January 10 and
March 21, 2009; however, the start of the IDS grant period was March 27, 2009. Although the
supply costs may otherwise be allowable, HRSA did not give written approval. Therefore, the
$2,597 claimed was not allowable for Federal reimbursement. This occurred because Mount
Vernon officials misinterpreted the terms and conditions of the CIP grant and mistakenly thought
that those terms and conditions constituted HRSA approval of preaward costs for the CIP and
IDS grants. Mount Vernon officials stated that they thought that the grant award terms and
conditions constituted HRSA approval and therefore did not require a separate request for HRSA
approval as required by the Federal cost principles.

Unallocable Cleaning Services Costs

Pursuant to 2 CFR part 230, Appendix A, § A.4, a cost is allocable to a Federal award if it is
incurred specifically for the award.

Mount Vernon charged $539 in lab coat cleaning services costs to the IDS grant that were
unallocable. Specifically, Mount Vernon incurred these costs for employees who did not work
on the IDS grant. Therefore, the $539 claimed was not allowable for Federal reimbursement
because the services incurred were not specifically used for the award.

Inadequately Documented Salary and Fringe Benefit Costs

Pursuant to 2 CFR part 230, Appendix B, §§ 8.b(2) and 8.m, for salaries and wages to be
allowable for Federal reimbursement, grantees must maintain personnel activity reports of the
actual activity for each employee working on Federal awards. These reports must be signed by
the employee or a supervisory official having firsthand knowledge of the employee’s activities,
be prepared at least monthly, coincide with one or more pay periods, and account for the total
activity of the employee.




                                                4
We could not determine the allowability of $1,610,046 charged to the IDS grant because Mount
Vernon did not properly maintain personnel activity reports for employees charged to the grant.
Although Mount Vernon maintained personnel activity reports for employees whom it stated
worked on the IDS grant, the employees’ personnel activity reports stated that the employees
worked entirely on the section 330 grant. Therefore, we could not determine whether the
$1,610,046 claimed was allowable for Federal reimbursement. This occurred because, according
to Mount Vernon officials, HRSA told them that a separate after- the-fact determination to the
IDS grant on employee personnel activity reports was unnecessary and that salaries charged to
the IDS grant could be reflected on the section 330 grant instead.

Expenditures for the Capital Improvement Program Grant

Mount Vernon claimed unallowable CIP grant expenditures totaling $38,894. Mount Vernon
claimed $21,938 for costs that were not allocable to the CIP grant and $16,956 for preaward
costs incurred prior to the start of the grant period without requesting HRSA approval.

Duplicate and Unallocable Information Technology, Supply, and Environmental Assessment
Costs

Pursuant to 2 CFR part 230, Appendix A, § A.4, a cost is allocable to a Federal award if it is
incurred specifically for the award. Pursuant to 2 CFR part 230, Appendix A, § A.2, costs must
be adequately documented and must not be included as a cost of any other federally financed
program in either the current or a prior period to be allowable under an award.

Mount Vernon charged $21,938 to the CIP grant for services for which there was no benefit
received.

Specifically, Mount Vernon charged $13,051 to the CIP grant two times for the same
information technology service from the same vendor. Therefore, the duplicate payment of
$13,051 was not allowable for Federal reimbursement.

Mount Vernon charged $4,926 to the CIP grant for supply costs that had also been charged to the
IDS grant. Because these costs were charged to the IDS grant, the amount claimed under the
CIP grant was not allowable for Federal reimbursement. 4

Mount Vernon charged $3,961 to the CIP grant for an environmental assessment that was not
incurred specifically for the CIP grant. The cost was incurred for a construction project at a
health center funded by HRSA’s Facility Improvement Program grant. Therefore, the $3,961
claimed on the CIP grant was unallowable for Federal reimbursement.




4
  We determined that the IDS grant, rather than the CIP grant, was the proper grant for the supply costs to be
charged to because the costs were included in the IDS grant budget.

                                                          5
Unapproved Information Technology, Supply, and Furniture Costs

Pursuant to 2 CFR part 230, Appendix B, § 36, preaward costs are allowable only to the extent
that they would have been allowable if incurred after the date of the award and only with the
written approval of the awarding agency.

Mount Vernon charged $16,956 to the CIP grant for information technology ($9,724), supply
($6,377), and furniture ($855) costs incurred prior to the start of the grant period without
requesting HRSA approval. Specifically, Mount Vernon incurred these costs between April 11,
and June 25, 2009; however, the grant period did not start until June 29, 2009. Although the
supply costs may otherwise be allowable, HRSA did not give written approval. Therefore, the
$16,956 claimed was not allowable for Federal reimbursement. Mount Vernon officials stated
that they thought that the grant award terms and conditions constituted HRSA approval and
therefore did not require a separate request for HRSA approval.

DRAWDOWNS MADE WITHOUT AN IMMEDIATE CASH NEED

Pursuant to 45 CFR § 74.22(b)(2), cash advances to grant recipients shall be limited to the
minimum amounts needed and be timed to be in accordance with the actual, immediate cash
requirements of the recipient organization in carrying out the purpose of the approved program
or project.

Mount Vernon drew down CIP grant funds from HHS’s Payment Management System totaling
$249,162 for which there was not an immediate cash need of the organization to carry out the
project. Mount Vernon drew down the funds between August 2009 and June 2011; however, it
did not expend the funds until October 2011. We did not determine the $249,162 to be
unallowable because Mount Vernon expended the grant funds for allowable expenditures.
However, we are reporting on the matter because drawing down funds without immediately
expending them can have a negative impact on the integrity of the program and the proper
reporting of program expenditures.

The untimely drawdowns occurred because Mount Vernon did not follow its procedures related
to limiting drawdowns to immediate payroll needs and outstanding vendor invoices.
Specifically, Mount Vernon’s policy stated “drawdowns will be used to cover payroll and
outstanding vendor invoices … and will be immediately dispersed for expenses already incurred,
so as not to have any Federal funds in account at any time.” Mount Vernon officials explained
that the CIP grant was ending and that they withheld payment to a vendor until all work was
completed. Mount Vernon officials stated that they deviated from their written policy because
HRSA gave them permission to draw down the funds early.

RECOMMENDATIONS

We recommend that HRSA:

   •   require Mount Vernon to refund $42,030 to the Federal Government ($3,136 related to
       the IDS grant, and $38,894 related to the CIP grant);

                                               6
      •    either require Mount Vernon to refund $1,610,046 in IDS grant funds to the Federal
           Government or work with Mount Vernon to determine whether any of these costs
           claimed against the grant were allowable;

      •    educate Mount Vernon officials on Federal requirements for the proper period to charge
           costs and supporting salaries and wages and ensure that Mount Vernon maintains
           personnel activity reports for each employee who works on Federal awards; and

      •    ensure that Mount Vernon adheres to its policies and procedures for drawing down
           Federal funds.

MOUNT VERNON NEIGHBORHOOD HEALTH CENTER, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our initial draft report, Mount Vernon disagreed with several of our
findings on the basis of guidance about prior approval of grant costs that, according to Mount
Vernon officials, it had received from HRSA. In its comments, Mount Vernon also described
steps that it has taken to ensure that its time-and-effort reporting accurately reflects the grant to
which each of its employees is assigned. Mount Vernon provided documentation to substantiate
its efforts, including its revised policies and procedures for time-and-effort reporting.

After reviewing Mount Vernon’s comments and consulting with HRSA officials, we removed
one finding and reduced the amount of the corresponding recommended disallowance from
$148,878 to $38,894. HRSA officials confirmed that Mount Vernon did not need prior written
approval for $109,984 of equipment, building improvement, and information technology costs
that Mount Vernon had charged to its CIP grant. We maintain that our remaining findings and
recommendations in this report are valid. Mount Vernon’s written comments are included as
Appendix A. 5

Expenditures for the Increased Demand for Services Grant

Mount Vernon Comments

Mount Vernon stated that it believed it was permitted to incur costs up to 90 days prior to the
start of the grant award and that it claimed $2,597 for supplies only after contacting its HRSA
project officer to confirm that the expenses were allowable. Mount Vernon also stated that it
claimed $539 to have lab coats cleaned and maintained for all of its employees who worked on
the grant, and that it assumed that this was an allowable cost. Finally, for $1,610,046 in salaries
and wages that it charged to the IDS grant, Mount Vernon stated that IDS funds were mislabeled
as section 330 grant funds and that it did not know that the activity of each employee who
worked on the IDS grant should have been separately identified. As a result, personnel activity
reports reflected that employees worked entirely on the section 330 grant. Mount Vernon further


5
    The additional documents that Mount Vernon provided were too voluminous to include in this report.

                                                          7
stated that it has revised its policies to ensure that time-and-effort reporting accurately reflects
the grant to which an employee is assigned.

Office of Inspector General Response

After reviewing Mount Vernon’s response and consulting with HRSA officials, we maintain that
our findings and recommendations are valid. HRSA officials told us that prior written approval
for the $2,597 in supplies had not been granted. Regarding lab coat cleaning costs ($539), we
questioned only those costs associated with employees whose salaries were not charged to the
IDS grant.

Expenditures for the Capital Improvement Program Grant

Mount Vernon Comments

Mount Vernon stated that it believed it was permitted to incur costs up to 90 days prior to the
start of the grant award and contended that it claimed $16,956 for information technology,
supplies, and furniture costs only after contacting its HRSA project officer to confirm that the
expenses were allowable. Mount Vernon also stated that it addressed the issues that led to
$21,938 in unallocable costs being charged to the CIP grant ($13,051 dual reimbursement,
$4,926 charged to both the IDS and CIP grants, and $3,961 incorrectly charged to the CIP grant).
These costs totaled $38,894.

Office of Inspector General Response

After reviewing Mount Vernon’s response and consulting with HRSA officials, we maintain that
our findings and recommendations are valid. Specifically, for the $38,894 charged to the CIP
grant, (1) Mount Vernon agreed that it had charged $21,938 in unallocable costs and (2) HRSA
officials told us that Mount Vernon was required to get prior written approval for $16,956 in
costs that it claimed prior to the start of the grant award.

Mount Vernon Comments

Mount Vernon stated that it had discussed with HRSA officials the $109,984 related to
equipment and building improvement costs ($102,910), and information technology costs
($7,074), which we had questioned in our initial draft report, and that the funds used to pay for
these costs came from other under-budget cost categories.

Office of Inspector General Response

After reviewing Mount Vernon’s comments and consulting with HRSA officials, we removed
one finding and reduced the amount of the corresponding recommended disallowance from
$148,878 to $38,894. HRSA officials confirmed that Mount Vernon did not need prior written
approval for $109,984 of equipment, building improvement, and information technology costs
that Mount Vernon had charged to its CIP grant. According to the terms and conditions of the
award, grantees are not required to seek prior approval for rebudgeting that is not considered

                                                   8
significant. Here, cumulative transfers did not exceed $250,000 and the purchase of a new unit
of equipment did not exceed $25,000.

Drawdowns Made Without an Immediate Cash Need

Mount Vernon Comments

Mount Vernon stated that it received permission from HRSA to draw down $249,162 in funds
without an immediate cash need because the funds were expended and the funds were drawn
down toward the end of the grant period.

Office of Inspector General Response

After reviewing Mount Vernon’s response and consulting with HRSA officials, we maintain that
our finding is valid. HRSA officials told us that HRSA did not grant Mount Vernon approval to
deviate from grant requirements.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our second draft report—which included Mount Vernon’s written
comments on our initial draft report—HRSA concurred with our recommendations. Specifically,
HRSA stated that it will work with Mount Vernon to determine the amount of unallowable costs
and require Mount Vernon to refund those amounts to the Federal Government. HRSA also
stated that it will work with Mount Vernon to ensure that Mount Vernon complies with Federal
requirements for charging costs, for supporting salaries and wages, and for maintaining
personnel activity reports for each employee who works on Federal awards. Lastly, HRSA
stated that it will work with Mount Vernon to ensure that Mount Vernon complies with its own
policies and procedures for drawing down Federal funds. HRSA’s comments are included in
their entirety as Appendix B.




                                               9
APPENDIXES
                                                                                                                                Page 1 of5


APPENDIX A: MOUNT VERNON NEIGHBORHOOD HEALTH CENTER, INC., 

                       COMMENTS 

..

                                                               tdtt~1 

                      Mount Vernon Neighborhood Health Center, Inc.

   BOARD OF DIRECTORS 

           David A. Ford, Sr. 
                  October 1, 2012                                             Carole Morris
           Chairman 
                                                                                        Chief Executive Officer

  Barbara Anderson 

      Vice Ch airman 
                           Mr. James P. Edert
                                                 Regional Inspector General
  Robert Mauro 
                                 for Audit Services - Region II
     Second Vice Chairman 

                                                 Office of Inspector Gene ral
  Anne Young-Berkeley 
                          Jacob K. Javits Building
     Secretary 
                                 26 Federal Plaza, Room 3900
  Serapher Conn-Halevi 

                                                 New York, NY 10278
      Treasurer 

                                                 Re: Report Number A-02- I J-020 13
  Hop eton White 

      Financial Secretary 

                                                 Dear Mr. Edert:
         Randall M. Coppin
         Myrna M erchant
                                                 This lette r is in response to yo ur letter dated September 25, 20 12
         Barbara D. Parker
         Nicholas Cicchetti, DPM                 (see attached). Per the instructions in          letter we sent our
         Francis Jones
         Stanley Ridley
                                                 respon ses to your report to                          on September 28,           t
                                                 2012. -               confi                  our response and
         Judge Adam Seiden
         Ivory Green                             instructed me to send a copy, of our response to yo ur office,
         Ann-Marie Nurse                         therefore enclosed please fin d the Mount Vernon Neighborhood
         Luz May Menendez                        Health Centers, JNC. response to "Claimed Unallowable Federal
                                                 Grant Expenditures" report.
 ADVISORY MEMBERS MVNHC
        Hon. J. Gary Pretlow
        Hon. Clinton Young                       If there is any additional information you req uire please feel free
        Hon. Ruth Hassell-Thompson               to contact u s at any time.
        Hon. Jeffrey Klein
        Hon. Andrea Stewart-Cousins
        Hon. Nicholas Spano                      Siocyrely, ~ #
        Hon. Richard Dixon
        Mr. Dennis Mehiel
                                                  //tt-- c~~
        Mr. David Alpert
                                                 Vance E. Granby
                                                 Chief Financial Officer


                 Accredited
                      by




         Joint Commission
 on AccttdltltfDit of IMIIthclft Org1niutl0111




                     107 West Fourth Street • Mount Vernon, New York 10550 • (914) 699-7200 • Fax (914) 699-0837




 t    Office o flnsp ector General note: The deleted text has been redacted because it contained personally identi fiabl e information .
                                                                                                       Page 2 of5



                                                      Mount Vernon Neighborhood Health Center, Inc.
                                                        Response to Office of Inspector General on
                                                                                     OIG Findings

                 Response to Office of Inspector General 

                           On OIG Findings 


Mount Vernon charged $2,597 in supply cos!s to the IDS grant for costs incurred prior to the start
of the grant period. Specifically, Mount Vernon made purchases between January 10 and March
21 , 2009; however, the start of the IDS grant period was March 27, 2009. Although the supply
costs may otherwise be allowable, HRSA did not give written approval. Therefore, the $2,597
claimed was not allowable for Federal reimbursement. This occurred because Mount Vernon
officials misinterpreted the terms and conditions of the CIP grant and mistakenly thought that those
terms and conditions constituted HRSA approval of preaward costs for the CIP and IDS grants.
Mount Vernon officials stated that they thought that the grant award terms and conditions
constituted HRSA approval and therefore did not require a separate request for HRSA approval as
required by the Federal cost principles.

IDS
Expenditures made prior to the grant period.

The funding period began on March 27111 , 2009 and it was our understanding based on the
'Notice of Grant Award' that we were permitted to incur pre award costs up to 90 calendar
days prior to the award. Therefore, after-contacting our Project Officer to confirm that the
expense was allowable we claimed the funds.

We could not determine the allow ability of $1 ,610.046 charged to the IDS grant because Mount
Vernon did not properly maintain personnel activity reports for employees charged to the grant.
Although Mount Vernon maintained personnel activity reports for employees whom it stated worked
on the IDS grant, the employees' personnel activity reports stated that the employees worked
entirely on the Section 330 grant. Therefore, we could not determine whether the $1 ,610,046
claimed was allowable for Federal reimbursement. This occurred because, according to Mount
Vernon officials, HRSA told them that a separate after-the-fact determination to the IDS grant on
employee personnel activity reports was unnecessary and that salaries charged to the IDS grant
could be reflected on the Section 330 grant instead.

Allow ability of $1.610.046
 Mount Vernon Neighborhood Health Center, Inc. hired staff based on the availability of the
grant received. There is documentation of staff activity for the employment period. The IDS
funds were mislabeled as 330 funds not specifically IDS funds since this was all HRSA
funding. Therefore, the personnel activity reports reflected that the employees worked
entirely on the 330 Grant since these employees worked on the Health Center Program. We
did not know that the IDS funding should have separately identified the activity of each
employee who worked on the IDS grant. We have since revised our policies, and provisions
to ensure time and effort reporting accurately reflects the grant/cost center to which the
employee is assigned.
                                                                                                          Page 3 of5



                                                        Mount Vernon Neighborhood Health Center, Inc.
                                                          Response to Office of Inspector General on
                                                                                       OIG Findings


 Monitoring activities have been implemented to ensure that the policy requirements are
 being met. Employees are required to sign the Time and Effort Report/Cost Center to which
 the employee Is assigned. These forms are reviewed bi-weekly by Chief Financial Officer or
 designee. (Attachment Time and Effort Policy). In addition all financial accounting clearly
 identifies funding source.

Mount Vemon drew down CIP grant funds from HHS's Payment Management System totaling
$249,162 for which here was not an immediate cash need of the organization to carry out the
project. Mount Vemon drew down the funds between August 2009 and June 2011 ; however, it did
not expend the funds until October 2011 . We did not determine the $249,162 to be unallowable
because Mount Vernon expended the grant funds for allowable expenditures. However, we are
reporting on the matter because drawing down funds without immediately expending them can
have a negative impact on the integrity of the program and the proper reporting of program
expenditures.

The untimely drawdowns occurred because Mount Vernon did not follow its procedures related to
limiting drawdowns to immediate payroll needs and outstanding vendor invoices. Specifically,
Mount Vernon's policy stated "drawdowns will be used to cover payroll and outstanding vendor
invoices... and will be immediately dispersed for expenses already incurred, so as not to have any
Federal funds in account at any time." Mount Vernon Officials explained that the CIP grant was
ending and that they withheld payment to a vendor until all work as completed. Mount Vernon
officials stated that they deviated from their written policy because HRSA gave them permission to
draw down the funds early.

CIP Grant Funds

Draw down of $249,162.00

The drawdown of the $249,162 from funds expended to satisfy the contract requirements
with our IT/EHR vendor. There was telephone discussion between the Project Officer and
Mount Vernon Senior Staff concerning the drawdown of these funds. We were advised that
since these funds were expended we could draw down the funds since we were at the end
of the grant period. We did not wish to pay the vendor at that time since there were
incomplete deliverables that would have been completed within a short period of time.

Since we were not in the habit of requesting a written response from our Project Officer on
advice requested we did not get the request response in writing. However, there were
several staff in the room listening to the call on speaker phone.

Mount Vernon charged $16,956 to the CIP grant for information technology ($9,724, supply
($6,377), and furniture ($855) costs incurred prior to the start of the grant period without requesting
HRSA approval. Specifically, Mount Vernon incurred these costs between April 11, and June 25,
2009; however, the grant period did not start until June 29, 2009. Although the supply costs may
otherwise be allowable, HRSA did not give written approval. Therefore, the $16,956 claimed was
not allowable for Federal reimbursement. Mount Vernon officials stated that they thought that the

                                                                                                     2
                                                                                                    Page 4 of 5



                                                    Mount Vernon Neighborhood Health Center, Inc.
                                                      Response to Office of Inspector General on
                                                                                   OIG Findings

grant award terms and conditions constituted HRSA approval and therefore did not require a
separate request for HRSA approval.

Expenditures that excee<Jed the approved budget. $ 102,910

Regarding the first item on your list Network Infrastructure there had been a change and the
budgeted amount was $500,000. In addition, we had requested to use an additional $40,000
that was budgeted for embosser's machines and addressographs machines to be
transferred to network infrastructure since we plan to implement EHR (Electronic Medical
Records) there would no longer be a need for these machines.

In reference to the above and the other items in this category, we had brought this to the
attention of our HRSA Grants Managers, specifically that we had savings on some of the
budgeted items and would be over on other. However, we were advised that this would not
be a problem as long as the overage did not exceed 10% of the grant that no prior approval
was necessary.

Expenditures made prior to the grant period. $16,956

The funding period began on June 29, 2009 and it was our understanding as stated
previously, that we were allowed to incur reimbursable expenses up to ninety days prior to
the start date of the grant period.


Mount Vernon charged $21,938 to the CIP grant for services for which there was no benefit

Specific items in question

1) $1311051 was incorrectly reimbursed twice, we have reinforced our Accounting Policies
with staff to ensure no further occurrence of this nature.
2) $4,926 Supplies were charged to both the CIP and IDS grants. we have reinforced our
Accounting Policies with staff to ensure that all items are correctly charged to the
appropriate cost center.
3) $3,961 was charged for an environmental assessment which should have been charged
to our Facilities Improvement Grant, this amount has subsequently been reclassified and
charged to the appropriate funding source.

Mount Vernon charged $3, 196 unallowable supplies and cleaning services.

All the providers on this grant were provided lab coats which the Center paid to have
cleaned and maintained, $539. It is our assumption that this was an allowable cost in the
grant. The balance of $2,657 for supplies is the proportionate share of supplies allocated to
those areas covered under the grant.


Mount Vernon charged $7,074 to CIP for information technology improvement costs.

                                                                                              3
                                                                                                Page 5 of5



                                                Mount Vernon Neighborhood Health Center, Inc.
                                                  Response to Offi ce of Inspector General on
                                                                                OIG Findings

These cost were related to the overall implementation of the Network Infrastructure, which
Included necessary wiring, and upgrades. Since there were cost savings in other categories
we felt this cost was appropriate.




                                                                                          4
                                                                                                                          Page 1 of3


                      APPENDIX B: HEALTH RESOURCES AND SERVICES 

                              ADMINISTRATION COMMENTS 





i
..,~
    4-
/~VJCa... "

                   DEPARTMENT OF HEALTH & H UMAN SERVICES
                                                                                          Health Resources and Services
                                                                                          Administration

                                                                                          Rockville, MD 20857

                                                   FEB 1 I

              TO: 	         Inspector General

              FROM: 	       Administrator

              SUBJECT: 	 OIG Draft Report: "Mount Vernon Neighborhood Health Center, Inc. , Claimed
                         Unallowable Federal Grant E xpenditures" (A-02-11-02013)

              Attached is the Health Resources and Services Administration's (HRSA) response to the OIG 's
              draft report, " Mount Vernon Neighborhood Health Center, Inc., Claimed Unallowable Federal
              Grant Expenditures" (A-02-1 l -020 13). If you have any questions, please contact Sandy Seaton
              in HRSA's Office of Federal Assistance Management at (301) 443-2432.


                                                       ~77h         .   t...C-c..   ,_.~/J-.c~c.'
                                                                                    I .      ' .   ,.



                                                                                          /--q
                                                          Mary K. Wakefield, Ph.D., R. .

              Attachment
                                                                                                 Page 2 of3




  Health Resources and Services Administration's Comments on the OIG Draft Report­
    "Mount Vernon Neighborhood Health Center, Inc., Claimed Unallowable Federal Grant
                            Expenditures" (A-02-11-02013)

The Health Resources and Services Adm inistration (HRSA) appreciates the opportunity to 

respond to the above draft report. HRSA's response to the Office of Inspector General (OIG) 

recommendations are as follows: 


OIG Recommendation: 

We recommend that HRSA ensure that Mount Vernon refunds $42,030 to the Federal 

Government ($3, 136 related to the IDS grant and $38,894 related to the CTP grant). 


HRSA Response: 

HRSA concurs with OIG's recommendation and will work with Mow1t Vernon to determine the 

amount of unallowable costs charged and require that such amounts be refunded to the federal 

government. 


OIG Recommendation: 

We recommend that HRSA either require Mount Vernon to refund $1,61 0,046 in IDS grant 

funds to the Federal Government or work with Mount Vernon to determine whether any of these 

costs claimed against the grant were allowable. 


HRSA Response: 

HRSA concurs with OIG's recommendation and will work with Mount Vernon to determine the 

amount of allowable costs and require that any unallowable amounts charged to the IDS grant be 

refunded to the federal government. 


OIG Recommendation: 

We recommend that HRSA educate Mount Vernon officials on Federal requirements for the 

proper period to charge costs and supporting salaries and wages and ensure that Mount Vernon 

maintains personnel activity reports for each employee who works on Federal awards. 


HRSA Response: 

HRSA concurs with OIG's recommendation and will work with Mount Vernon to ensure that 

they are in compliance with federal requirements regarding charge costs, supporting salaries and 

wages, and maintaining personnel activity reports for each employee who works on federal 

awards. 


OIG Recommendation: 

We recommend that HRSA ensure that Mount Vernon adheres to its policies and procedures for 

drawing down Federal funds. 

                                                                                         Page 3 of3




HRSA Response:
HRSA concurs with OIG's recommendation and upon receipt of the final report, HRSA will
work with Mount Vernon to ensure that they are in compliance with their policies and
procedures for drawing down federal funds.
